SIGAR                                                         Special Inspector General for
                                                               Afghanistan Reconstruction




                                                                          SIGAR Inspection 13-3



       GAMBERI AFGHAN NATIONAL ARMY
       GARRISON: SITE GRADING AND
       INFRASTRUCTURE MAINTENANCE
       PROBLEMS PUT FACILITIES AT RISK




                                                                                OCTOBER
                                                                                 2012
SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison
                                                      October 2012



 SIGAR
                                                      Gamberi Afghan National Army Garrison: Site Grading and Infrastructure
                                                      Maintenance Problems Put Facilities at Risk


                                                      SIGAR INSPECTION-13-3
 Special Inspector General for
WHAT SIGAR RECOMMENDS
 Afghanistan  Reconstruction
                                                      WHAT SIGAR FOUND
 WHAT SIGAR REVIEWED
                                                      Failure to mitigate site grading issues and inadequate storm
 The Combined Security Transition                     drainage maintenance continue to threaten facilities at the Gamberi
 Command-Afghanistan, through the                     ANA garrison. Poor site grading resulted in areas of low elevation
 Afghanistan Security Forces Fund,                    where storm water collected, causing flooding within the garrison
 provided $129.8 million to the U.S.                  and allowing sediment to collect and storm water ditches to erode.
 Army Corps of Engineers (USACE),                     SIGAR observed an eroded channel and standing water by the
 Afghanistan Engineer District-North                  wastewater treatment plant. Due to the amount of erosion, debris,
 (TAN) to construct an Afghan National                and signs of flooding, SIGAR observed that USACE had done little to
 Army (ANA) garrison in Gamberi,                      prevent or repair these problems, and its site grading efforts had
 located in Nangarhar province on                     been ineffective. Should flooding continue, it could eventually
 Afghanistan’s eastern border. As part                damage roads and affect wastewater treatment plant operation by
 of its inspections program, the                      preventing access to the facility, overflowing into the treatment
 Special Inspector General for                        plant, and weakening building foundations, which could cause the
 Afghanistan Reconstruction (SIGAR)                   buildings to become unsafe or unusable.
 conducted an inspection to follow up
 on actions USACE-TAN took in                         Although it was too early to evaluate the construction quality of the
 response to an open                                  replacement culvert, SIGAR determined that its hydraulic design had
 recommendation in SIGAR Audit-10-                    flaws that could lead to a future structural failure, making the culvert
 10, “ANA Garrison at Gamberi                         unsafe or unusable. USACE-TAN officials stated that the contractor
 Appears Well Built Overall but Some                  had determined that no design changes were necessary based on its
 Construction Issues Need to Be                       review and calculations. Despite the contractor’s determination,
 Addressed,” dated April 30, 2010.                    SIGAR remains concerned that the hydraulic design may eventually
 During that audit, SIGAR found                       lead to structural failure of the culvert.
 several problems with flood control
 measures, site grading, and a                        WHAT SIGAR RECOMMENDS
 deteriorating bridge. For example,
 SIGAR reported that the poor grading                 SIGAR recommends that the Commanding General, USACE, to (1)
 at the construction site could result in             repair damaged storm water facilities, (2) implement mitigating flood
 the accumulation of water around                     control measures, (3) maintain the storm water drainage system,
 buildings and, if not addressed, could               and (4) review the culvert’s design and correct any deficiencies
 lead to flooding after a significant                 identified. USACE-TAN concurred with the first three
 rainfall. Accordingly, this inspection               recommendations and noted actions it is taking to address them.
 assessed the actions taken by                        USACE disagreed
 USACE-TAN to correct or mitigate site                with the fourth
 grading and infrastructure                           recommendation but
 maintenance problems at the ANA                      plans to inspect the
 garrison at Gamberi. SIGAR also                      culvert during the
                                                      warranty period and                                            Storm
 inspected a new culvert under                                                                                        Drain
 construction that was being built to                 correct any
                                                      deficiencies                                                  Erosion
 replace the deteriorating bridge near
 the entrance to the garrison.                        identified.




        For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
October 30, 2012


General James N. Mattis
  Commander, U.S. Central Command

General John R. Allen
  Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Daniel P. Bolger
   Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Lieutenant General Thomas P. Bostick
   Commanding General and Chief of Engineers
   U.S. Army Corps of Engineers


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) follow-up inspection of the Gamberi Afghan National Army Garrison,
Nangarhar province, Afghanistan. We determined that site grading measures and
maintenance to mitigate flooding continue to be ineffective, and we are concerned about the
risk of structural failure of the newly constructed culvert. Accordingly, we are recommending
several actions to the Commanding General, U.S. Army Corps of Engineers, to improve the
structural integrity of the facilities at the Gamberi garrison.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2 
Failure to Mitigate Site Grading Issues Continues to Threaten Facilities at the ANA Garrison at Gamberi ........... 2 
Design of Replacement Culvert Could Lead to Structural Failure ............................................................................ 3 

Conclusions .................................................................................................................................................................. 4 
Recommendations ...................................................................................................................................................... 4 
Agency Comments ....................................................................................................................................................... 5 

Appendix I - Scope and Methodology ......................................................................................................................... 6 
Appendix II - Gamberi Garrison Site Plan ................................................................................................................... 7 
Appendix III - Summary of Original Gamberi Contracts and Amendments ............................................................... 8 
Appendix IV - Comments from the NATO Training Mission-Afghanistan/Combined Security Transition Command-
    Afghanistan ....................................................................................................................................................... 10 
Appendix V - Comments from the U.S. Army Corps of Engineers ............................................................................ 11 
Appendix VI - Acknowledgments ............................................................................................................................... 14 


TABLES

Table I - Summary of Phases I to III and Range Complex Original and Amended Contract Amounts (millions)..... 9 




FIGURES

Figure 1 - Eroded Channel........................................................................................................................................... 3 

Figure 2 - Perimeter Road ........................................................................................................................................... 3 
Figure I - Site Plan Showing Approximate Inspection Locations and Other Information ......................................... 7 




ABBREVIATIONS & ACRONYMS

             ANA                                        Afghan National Army
             SIGAR                                      Special Inspector General for Afghanistan Reconstruction
             USACE-TAN                                  U.S. Army Corps of Engineers, Afghanistan Engineer District-North




SIGAR Inspection – 13-3 Gamberi Afghan National Army Garrison                                                                                                          Page i
An objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security
by training and equipping the Afghan National Security Forces, which includes the Afghan National Army
(ANA).1 The Combined Security Transition Command-Afghanistan, through the Afghanistan Security Forces
Fund, provided $129.8 million to the U.S. Army Corps of Engineers (USACE)/Afghanistan Engineer District-
North (TAN)2 to construct an ANA garrison at Gamberi in Nangarhar province on Afghanistan’s eastern border. 3
In April 2010, we reported that, although the ANA garrison at Gamberi generally appeared to be well built,
several issues needed to be addressed, including poor flood control measures, inadequate grading, a
deteriorating bridge, and security at the weapons training range.4 For example, we noted that the poor grading
at the construction site could result in the accumulation of water around buildings and, if not addressed, could
lead to flooding after a significant rainfall. We also reported that the deck of the deteriorating bridge could
collapse under the weight of armored vehicles and construction traffic. We recommended that USACE take
action to (1) mitigate silt accumulation in the anti-vehicle and flood control trench,5 (2) ensure that the site was
properly graded, (3) repair the bridge near the main entrance of the garrison,6 and (4) secure the weapons
training range.7 Although our 2012 inspection primarily focused on actions taken to address our open
recommendation on site grading, we also inspected the new culvert being constructed to replace the
deteriorating bridge. Appendix I contains more detail on our scope and methodology, and appendix II contains
a site plan showing approximate inspection locations and other information.
We conducted this inspection at Kabul, Afghanistan, the USACE Jalalabad Resident Office, and the ANA
garrison in Gamberi from January to October 2012, in accordance with the Quality Standards for Inspection
and Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency. The engineering
assessment was conducted by professional engineers in accordance with the NSPE Code of Ethics for
Engineers.




1 According to the Report on Progress toward National Security and Stability in Afghanistan, dated April 2012, the Afghan

National Security Forces are ahead of schedule to achieve the end-strength of 352,000 by October 2012.
2 In 2009, the Afghanistan Engineer District was divided into two districts—North and South. The North District is referred

to as USACE-TAN.
3 The Gamberi garrison is located in the Gamberi Desert along Afghanistan’s eastern border with Pakistan. The garrison site
is 13 kilometers east of the city of Jalalabad, in Nangarhar province.
4 SIGARAudit-10-10, ANA Garrison at Gamberi Appears Well Built Overall but Some Construction Issues Need to Be
Addressed, dated April 30, 2010.
5 SIGAR closed this recommendation when USACE agreed to use the recommendations from a proposed CSTC-A-funded

watershed study and to ensure that trench maintenance for sediment removal would be performed periodically. Since the
completion of our prior audit, the boundaries of the garrison expanded, and a new anti-vehicle and flood control trench was
being constructed during our 2012 site visit. However, we did not observe any survey markers for this construction.
6 SIGAR closed this recommendation when USACE agreed to negotiate with the construction contractor to repair the bridge

before final acceptance of the project from the contractor.
7 During our site visit in 2010, we noted that the weapons training range was unsecured, which allowed the entry of local

residents, including nomads who grazed animals in the area. SIGAR closed this recommendation when USACE reported
that perimeter fencing was being installed in accordance with the construction contract. In reviewing documents after our
February 2012 site visit, we noted that a fence had been constructed, but the construction did not match the as-built
drawings. We brought this to the attention of USACE-TAN officials.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                                          Page 1
BACKGROUND

The Gamberi project initially consisted of four firm-fixed-price contracts to accommodate an ANA garrison of
three infantry battalions consisting of about 4,000 personnel in a 1 kilometer by 1 kilometer compound. The
contracts also provided for an embedded training team compound to accommodate 250 U.S. soldiers working
with ANA battalions. The contracts totaled more than $126.5 million and, through a series of amendments
and a subsequent delivery order, the cost was increased to almost $129.8 million. At the time of the 2010
audit, the U.S. government had paid more than $87 million of the $129.8 million that had been obligated for
the contracts. Appendix III provides more information for each of these contracts.
Subsequent to our 2010 audit, USACE-TAN awarded a firm-fixed-price contract for additional construction
projects.8 The purpose of the contract was to design and construct approximately 26,000 square meters of
new road; 3,540 linear meters of anti-vehicle trench; and 1,000 square meters of riprap,9 and to design and
replace the main access bridge to the garrison with a new culvert. The Gamberi ANA garrison is currently
maintained under the USACE operation and maintenance contract.


FAILURE TO MITIGATE SITE GRADING ISSUES CONTINUES TO THREATEN
FACILITIES AT THE ANA GARRISON AT GAMBERI

During our inspection at Gamberi on February 18 and 19, 2012, we found that site grading and infrastructure
maintenance continue to be ineffective in mitigating flooding and erosion within the garrison. Specifically,
while most of the site had an efficient storm water drainage system in place, problems related to poor site
grading continued to exist. The poor site grading resulted in areas of low elevation where storm water
collected, causing flooding within the garrison and allowing sediment to collect and storm water ditches to
erode.10
During this inspection, we also observed a channel with erosion of 2,000 mm to 3,000 mm deep (see figure 1)
and standing water by the wastewater treatment plant (see figure 2). Due to the amount of erosion, debris,
and signs of flooding that we observed, we concluded that USACE had done little to prevent or repair these
problems, and its site grading efforts had been ineffective. Poor infrastructure maintenance may have also
contributed to garrison flooding, erosion around the storm water channels, and debris blocking water outlets at
the perimeter wall and storm drain culverts.
In the southeastern area of the garrison, we noted that the storm water trenches were eroding, which could
cause storm water to eventually reach and erode one of the major roads on the garrison. We also observed
deep ruts and standing water on other roads. Adding gravel to low lying roads where flooding regularly occurs
or applying similar mitigating procedures, would help to drain these areas more quickly.




8   Contract (W5J9JE-10-D-0004-0005), awarded on January 21, 2011, to Lakeshore Engineering Services for $5,796,988.
9   Riprap is an engineered layer of graded broken rock pieces placed on an embankment slope to prevent erosion.
10 In our 2010 report, we stated that sound construction practices dictate that soil grading should begin on the low end of a

construction site and progress to higher elevations to allow interim storm water runoff to drain completely off the project.
We also observed that the finished grade of the streets in the project were significantly higher than adjacent building slabs
at several locations throughout the site. We concluded that the poor grading design would likely result in accumulation of
water around structures and that a significant rainfall could cause flooding if site grading problems were not addressed.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                                          Page 2
Figure 1 - Eroded Channel                                       Figure 2 - Perimeter Road


                                         Concrete                                                     Wastewater
                                         storm water                                                  treatment lagoon
                                         channel




           Eroded
           Channel




Source - SIGAR Gamberi Site Visit February 18, 2012.            Source - SIGAR Gamberi Site Visit February 18, 2012.

We also noted that the wastewater treatment plant, located in the south corner of the garrison (downhill from
the rest of the base), was prone to flooding because of improper site grading. As a result, travel in the area
was difficult or impossible during flooding conditions. We found no evidence that grading or appropriate
structures had been put in place to divert the storm water off site. Further, we noticed severe erosion
occurring in the storm water channels in this area, as well as water collecting in the low-lying areas, when it
should have drained into channels leading outside the base, especially near the wastewater treatment plant.
There was no evidence that any work had been conducted to repair this issue.11 Should flooding continue, it
could eventually affect wastewater treatment plant operation by preventing access to the facility, overflowing
into the treatment plant, and weakening building foundations, eventually causing structural failures.
In commenting on our draft report, USACE-TAN noted that completed construction projects at the garrison are
turned over to NTM-A/CSTC-A for use by Afghan National Security Forces and that maintenance on the grounds
and facilities is performed under the USACE operation and maintenance contract. However, if site grading and
infrastructure maintenance had been performed under the original construction contract--as we noted in our
April 2010 report—the contractor would have been required to perform this work under warranty, rather than
USACE incurring additional costs under the operation and maintenance contract.


DESIGN OF REPLACEMENT CULVERT COULD LEAD TO STRUCTURAL FAILURE

During our 2012 site visit and inspection, we found problems related to the design of the new culvert being
built to replace the deteriorating bridge discussed in our 2010 audit report.12 Our 2010 report noted that the




11 In responding to a draft of this report, USACE-TAN stated that on June 19, 2012, a storm water outlet construction

project was completed; however, they provided no photograph or other document to validate the repair.
12A culvert is an opening through an embankment for the conveyance of water by pipe or an enclosed channel. A culvert
can serve a purpose similar to that of a bridge but can differ in size and construction.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                                         Page 3
deck of the bridge could collapse under the weight of heavily armored vehicles and construction traffic.13 At
the time of our 2012 site visit, the contractor had just begun to excavate the area as part of site preparation.
Although it was too early to assess construction quality, we reviewed the technical specifications and design
drawings that USACE-TAN provided at the site. After the site visit, we reviewed the culvert hydraulic design
analysis and found that (1) the size of the drainage basin was too small, and (2) the proposed culvert had flaws
in its hydraulic design,14 which we determined could lead to a future structural failure and make the culvert
unsafe or unusable.
We briefed USACE-TAN officials on April 4, 2012, to discuss our concerns. In a follow-up teleconference on
April 30, 2012, USACE-TAN informed us that, in response to the concerns we raised, the contractor increased
the size of the drainage basin. Concerning the risk that the current hydraulic design could lead to a future
structural failure, USACE-TAN told us that the contractor had determined that no design changes were
necessary based on its review and calculations. Despite the contractor’s determination, we still have concerns
that the hydraulic design may eventually lead to structural failure of the culvert. In response to a draft of this
report, USACE-TAN stated that it performed formal reviews of the contractor’s design throughout the various
submittal phases. USACE-TAN further noted that it scheduled an inspection of the culvert in October 2012,
and will identify any new issues for correction at that time.


CONCLUSIONS

Site grading at the Gamberi ANA garrison continues to be ineffective in mitigating flooding and erosion. As a
result, garrison facilities are at risk, including the wastewater treatment plant and a major road network. In
addition, based on the amount of debris and sediment in the channels, the depth and quantity of road ruts,
and the amount of storm water channel erosion, it was evident that these facilities had not been properly
maintained for an extended period of time. Failure to address these issues could result in road damage and
failure of the wastewater treatment facility and storm drainage channels, eventually affecting base operations.
We also remain concerned about the risk of structural failure of the new culvert due to design flaws. The U.S.
government will need to spend additional funds to address the deficiencies we identified and protect its
investment in the Gamberi garrison.


RECOMMENDATIONS

To ensure the structural integrity of the Gamberi garrison in Nangarhar province, SIGAR recommends that the
Commanding General, USACE, direct USACE-TAN to take the necessary actions to remediate the deficiencies
identified during SIGAR’s inspection and determine a resolution that is in the best interest of the U.S.
government. Specifically, we recommend the following actions:




13 As noted in SIGAR Audit-10-10, although the stone masonry walls appeared to be in good condition, the deck of the

bridge was poorly constructed. Due to improper concrete placement, the reinforcement bars on the underside of the
concrete deck had inadequate contact with the concrete for proper strength and were exposed to the elements. The
reinforcement bars showed signs of corrosion, severely degrading the strength of the deck. As a result, the deck could
collapse under heavy traffic.
14 This destructive force is known as a “hydraulic jump.” Hydraulic jump, once it passes through a structure, erodes the

riverbed on the downstream side. Although we noted that the design analysis addressed this issue, the structure should
not be causing this. It was also not clear how the erosion potential was evaluated or calculated.



SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                                         Page 4
    1. Repair damaged storm water facilities by repairing eroding ditches and removing sediment and debris
       on roads, in ditches, and in perimeter wall outlets throughout the garrison.
    2. Implement mitigating flood control measures, such as adding gravel to low lying roads where flooding
       regularly occurs to drain these areas more quickly.
    3. Establish and follow a program to maintain the storm water drainage system and ensure that timely
       repairs are made to correct the deficiencies that we identified.
    4. Conduct a detailed structural analysis and design review of the culvert design package and take
       appropriate actions to correct any deficiencies identified.


AGENCY COMMENTS

We provided a draft of this report to NTM-A/CSTC-A and USACE-TAN for comment. NTM-A/CSTC-A concurred
with all four recommendations, but it noted that some of the issues addressed in the report are construction-
related and should be handled by the agency that managed the construction projects. It also stated that it
would engage with the Regional Support Command to identify avenues to address the concerns we identified
with storm water facilities and flood control measures. NTM-A/CSTC-A’s comments are reproduced in appendix
IV of this report.
USACE-TAN concurred with our first three recommendations and noted that it had requested the contracting
officer’s representative for the operation and maintenance contract to verify the current condition of drainage
areas and structures to help ensure that repairs are made as needed. However, USACE-TAN did not concur
with our fourth recommendation, stating that it had accepted the contractor’s design and that no additional
structural analysis or design review was necessary. Moreover, USACE-TAN noted that its contractor had
increased the size of the drainage basin in response to concerns we raised during a site visit during early
construction. Nevertheless, USACE-TAN described several actions to address issues related to the culvert’s
design that are generally responsive to our recommendation. For example, USACE-TAN stated that it has
scheduled a 4-month inspection of the culvert bridge in October 2012 and will identify any new issues at that
time. USACE-TAN also noted that it has reminded the contracting officer’s representative to ensure that the
operation and maintenance contractor routinely checks, among other things, all drainage structures, ditches,
and debris removal as part of its routine monthly preventative maintenance inspection. Furthermore, as storm
events occur, USACE-TAN stated that the contractor will conduct frequent reviews and surveys of the site as
storms occur for deteriorating conditions and that the responsible contracting officer’s representative will verify
any remedial actions taken. In our view, these actions are generally responsive to our recommendation.
Although we continue to have concerns that the hydraulic design could lead to structural failure of the culvert,
we are encouraged by USACE-TAN’s commitment to periodic inspections and urge it to take the necessary
actions to promptly remediate any deficiencies found. We will follow-up with USACE-TAN on the results of its
inspections.
USACE-TAN also provided technical comments, which we incorporated into this report, as appropriate. USACE-
TAN’s comments are reproduced in appendix V.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                                 Page 5
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of a follow-up assessment of actions taken by U.S. Army Corps of Engineers,
Afghanistan Engineer District-North (USACE-TAN) on an open recommendation in SIGAR Audit-10-10 by the
Office of the Special Inspector General for Afghanistan Reconstruction.
To determine if proper site grading and infrastructure maintenance was being performed under the operation
and maintenance contract, we
       reviewed SIGAR Audit-10-10 for background;
       examined contract documents, design submittals, and quality assurance and quality control
        documents to understand project requirements and administration;
       interviewed U.S. government officials responsible for overseeing operation and maintenance issues
        for the project; and
       visited the project site to observe the current status.
In order to determine what mitigation procedures were being performed to counter the problems associated
with improper site grading and infrastructure maintenance, we reviewed relevant documentation and met with
officials at the Combined Security Transition Command-Afghanistan and USACE-TAN offices in Kabul,
Afghanistan, and USACE-TAN’s Jalalabad Resident Office. We also conducted a site inspection of the Gamberi
ANA garrison on February 18 and 19, 2012. We reviewed construction quality control and quality assurance
reports as necessary to determine where site grading issues were occurring, so that we could direct our
attention to those areas during our time onsite. We considered the impact of compliance with laws and fraud
risk. We did not rely on computer-processed data in conducting this inspection.
SIGAR conducted its inspection work from January to October 2012 in accordance with Quality Standards for
Inspection and Evaluation published by the Council of the Inspectors General on Integrity and Efficiency. These
standards were established to guide all inspection work performed by the Offices of Inspector General. The
engineering assessments were conducted by Professional Engineers in accordance with the NSPE Code of
Ethics for Engineers. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our inspection objectives. This inspection was conducted by the office of the Special
Inspector General for Afghanistan Reconstruction under the authority of Public Law 110-181, as amended, the
Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                              Page 6
APPENDIX II - GAMBERI GARRISON SITE PLAN

Figure I - Site Plan Showing Approximate Inspection Locations and Other Information

        Gamberi Base
                                                                                           Anti-Vehicle and
                                                                                           Flood Control
                                                                                           Trench




                                                                                               Erosion Location
                                                                                               (approximate)



               Wastewater
               Treatment
               Plant
                                                                                                New Culvert



                                                                                           Road to Jalalabad
                                                                                           City




Source: SIGAR developed this graphic using Google, site visit, and contract information.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                                       Page 7
APPENDIX III - SUMMARY OF ORIGINAL GAMBERI CONTRACTS AND
AMENDMENTS

The contracts for three construction phases and the range complex were in effect during our 2010 review. The
following sections describe the contracts and the costs for the original contracts and amendments totaling
$129.8 million.
       Phase I: USACE awarded a firm-fixed-price contract (W917PM-08-C-0009) to DynCorp International,
        Limited Liability Corporation, on November 24, 2007, for nearly $49.2 million, and through a series of
        amendments the cost was increased to nearly $50.5 million. The purpose of the contract was to
        design, make site-adaptations, and construct a new campus facility for the Afghan National Army
        (ANA) garrison's use in Gamberi, Nangarhar province, in Afghanistan. Facilities included barracks,
        storage facilities, a dining facility, and an embedded training team compound.
       Phase II: USACE awarded a firm-fixed-price contract (W917PM-08-C-0076) to DynCorp International,
        Limited Liability Corporation, on August 7, 2008, for almost $40.0 million and through a series of
        amendments the cost was increased to almost $41.1 million. The purpose of the contract was to
        design, make partial site-adaptations, and construct new campus facilities for the ANA garrison's use
        in Gamberi. Facilities included barracks, a battalion headquarters building, and communication and
        electrical distribution systems.
       Phase III: USACE awarded a firm-fixed-price contract (W917PM-09-C-0052) to BYA, Incorporated, on
        June16, 2009, for almost $26.8 million. The purpose of the contract was to design and construct a
        new ANA Corps Support Battalion and related support facilities at Gamberi garrison. Facilities
        included three bachelor officers barracks, six enlisted open-bay barracks, battalion headquarters,
        arms storage, general warehouse storage, and a motor pool for the Corps Support Battalion.
       Range Complex: USACE awarded a firm-fixed-price contract (W917PM-08-C-0047) to Lakeshore
        Engineering Services, Incorporated, on June 10, 2009, for over $10.5 million, and through a series of
        amendments the cost was increased to over $11.4 million. The purpose of the contract was to design
        and construct one range complex consisting of eight new ranges and related roads and support
        facilities.
Table I shows the original and amended contract amounts for phases I-III and the range complex.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                             Page 8
      Table I - Summary of Phases I to III and Range Complex Original and Amended Contract
               Amounts (millions)
                                                                              Original   Amended
                  Contractor              Contract Number      Award Date
                                                                              Amount      Amount

      DynCorp International LLC          W917PM-08-C-0009     Nov 27, 2007   $49.2       $50.5
      (phase I)

      DynCorp International LLC          W917PM-08-C-0076     Aug 8, 2008    $40.0       $41.1
      (phase II)

      BYA, Inc. (phase III)              W917PM-09-C-0052     Jun 9, 2009    $26.8       $26.8

      Lakeshore Engineering Services,    W917PM-08-C-0047     Jun 10, 2009   $10.5       $11.4
      Inc. (range complex)

      Totals                                                                 $126.5      $129.8

      Source: SIGAR analysis of contracts and amendments.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                                        Page 9
APPENDIX IV - COMMENTS FROM THE NATO TRAINING MISSION-
AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison   Page 10
APPENDIX V - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




                                                              SIGAR Inspection
                                                              Report 12-03 is now
                                                              SIGAR Inspection
                                                              Report 13-3.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison      Page 11
SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison   Page 12
SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison   Page 13
APPENDIX VI - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
William “Lee” Dillingham, Senior Engineer
Lise Pederson, Senior Engineer




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison   Page 14
                             This inspection was conducted under project
                                           code SIGAR-I-002.




SIGAR Inspection 13-3/Gamberi Afghan National Army Garrison                Page 15
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                            Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
